HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in Texas Under the State Children's Health Insurance Program,"(A-06-02-00068)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
Texas Under the State Children's Health Insurance Program," (A-06-02-00068)
September 3, 2004
Complete
Text of Report is available in PDF format (711 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that Texas has an opportunity to increase enrollment in the State Children’s
Health Insurance Program (SCHIP) and have noncustodial parents pay a portion of the associated costs.  Based on a
statistical sample, we estimated that 114,708 children would have been eligible to receive SCHIP benefits from June 1,
2001 through May 31, 2002.  The noncustodial parents of 81,198 of these children could potentially contribute $39.7
million toward the $65.1 million in costs that would have been incurred if the children had been enrolled.  We also
determined that 22,793 Title IV-D children received SCHIP benefits during the audit period.  An estimated 14,288 of
these children had noncustodial parents who could potentially contribute $5.0 million toward the $6.5 million in SCHIP
premiums paid on behalf of their children.  We recommended that Texas take appropriate steps to recover SCHIP costs
from noncustodial parents with medical support orders and the ability to pay for their dependent children.